Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants
 to the Minnehaha County Sheriff's Department
Sioux Falls, South Dakota
GR-80-01-008
February  2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the Office of Community Oriented Policing Services to the Minnehaha County, South Dakota, Sheriff's Department.  The purpose of the grants is to enhance community policing.  The sheriff's department was awarded a total of $375,000 to hire five new deputies.

	We reviewed the sheriff's department's compliance with seven essential grant conditions.  The grant conditions were generally met.  However, the cumulative program outlays and the recipient share of outlays were overstated by $35,147 on the most recent Financial Status Report for the quarter ending September 30, 2000.

	These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.